No. 19-296
DAMIEN GUEDES; SHANE RODEN; FIREARMS POLICY FOUNDATION, a nonprofit organization; MADISON SOCIETY FOUNDATION, INC., a non-profit
organization; FLORIDA CARRY, INC., a non-profit organization; DAVID CODREA;
SCOTT HEUMAN; and OWEN MONROE,
Petitioners,
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES; WILLIAM P.
BARR, in his official capacity as Attorney General of the United States;
REGINA LOMBARDO, in her official capacity as Acting Deputy Director; and the
UNITED STATES OF AMERICA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief of the Cato
Institute as Amicus Curiae in Support of Petitioners contains 4,109 words,
excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

/s/ Ilya Shapiro
Counsel of Record

